  DEPARTMENT OF HOMELAND SECURITY

           Office of Inspector General

          Special Report: Letter on Information
          Technology Matters Related to TSA’s
             FY 2005 Financial Statements
                      (Redacted)




 Notice: The Department of Homeland Security, Office of Inspector General, has redacted
 this report for public release. The redactions are identified as (b)(2), comparable to 5
 U.S.C. § 552 (b)(2). A review under the Freedom of Information Act will be conducted upon
 request.




OIG-07-18                                                      December 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                     December 8, 2006


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our DHS oversight responsibility to promote economy, efficiency, and effectiveness within
the department.

This special report presents a letter on information technology (IT) matters related to TSA’s FY
2005 financial statements prepared by the independent public accounting firm KPMG LLP (KPMG).
We engaged KPMG to audit TSA’s FY 2005 financial statements. KPMG did not complete their
audit because TSA did not provide KPMG with final financial statements on which KPMG could
report.

The recommendations herein have been discussed in with those responsible for implementation. It is
our hope that this report with KPMG’s attached letter will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                             Richard L Skinner 

                                             Inspector General

                                                                           Attachment A




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       A.1
                                                                                                              Attachment A

                         SUMMARY OF FINDINGS AND RECOMMENDATIONS

The U.S. Coast Guard’s -------------- ------------------- hosts key financial applications for the U.S.
Department of Homeland Security’s (DHS) Transportation Security Administration (TSA). As such, our
audit procedures over IT general controls for TSA included a review of the Coast Guard’s ----------
procedures, policies, and practices. While we noted that ---------- took corrective actions to address prior
year IT control weaknesses that impact the TSA financial processing environment, we continued to find
IT general control weaknesses. Collectively, the IT control weaknesses limited TSA’s ability to ensure
that critical financial and operational data was maintained in such a manner to ensure confidentiality,
integrity, and availability. In addition, these weaknesses negatively impacted the internal controls over
TSA financial reporting and its operation.

We noted that many of the conditions identified during our prior year audits, which impact TSA financial
processing, have not been corrected because challenges continue to exist related to the merging of
numerous IT functions, controls, processes, and overall organizational shortages. During FY 2005, the
Coast Guard ---------- took steps to help address known weaknesses, such as conducting periodic
vulnerability assessments of security controls, increasing controls over access to sensitive application
functions, and implementing practices that adhere to guidance issued in the update to DHS Policy 4300A,
Sensitive System Handbook.

Despite these improvements, TSA and Coast Guard management should ensure that there is emphasis on
the monitoring and enforcement of IT security-related policies and procedures. On-going measures to
certify and accredit key financial systems hosted by -- -------- and implement effective disaster recovery
and continuity of operations controls need to be completed. Additionally, many of the repeat
vulnerabilities in system access and configuration controls that were identified during technical security
testing can be addressed by instituting a formal process for performing scans of the ------ ---- network
environment to ensure that security settings, once instituted, remain in place and to identify vulnerabilities
that require correction.

                                IT GENERAL CONTROL FINDINGS BY AREA

Entity-Wide Security Program Planning and Management

During FY 2005, we noted that the Coast Guard -- -------- had made progress towards improving entity-
wide security program planning and management. However, the Coast Guard ------ ---- has not
completed Certification and Accreditation (C&A) efforts for the -------------------------- ----- ----------
--------------------------------------- ----- ------------------ ----------------------- ---- -----------------------------------
Particularly, security testing and evaluation was incomplete and security plans had not been updated.

Recommendation:
Entity-wide security program planning and management controls should be in place to establish a
framework and continuing cycle of activity to manage security risk, develop security policies, assign
responsibilities, and monitor the adequacy of computer security related controls. We recommend that the
TSA Chief Financial Officer (CFO) and Chief Information Officer (CIO) offices work with ------------
management and the Coast Guard CIO, to ensure that the C&A process for key financial systems
affecting TSA processing is completed, including the completion of security tests and evaluations and the
update of security plans.
      Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                     Financial Statements
                                             A.2
                                                                                                    Attachment A



Access Controls

In close concert with an organization’s entity-wide information security program, access controls for
general support systems and applications should provide reasonable assurance that computer resources
such as data files, application programs, and computer-related facilities and equipment are protected
against unauthorized modification, disclosure, loss, or impairment. Access controls are facilitated by an
organization’s entity-wide security program. Such controls include physical controls, such as keeping
computers in locked rooms to limit physical access, and logical controls, such as security software
programs designed to prevent or detect unauthorized access to sensitive files. Inadequate access controls
diminish the reliability of computerized data and increase the risk of destruction or inappropriate
disclosure of information.
During FY 2005, we noted that the Coast Guard ---------- began conducting periodic vulnerability
assessments to identify system and network security risks. While this resulted in a reduced number of
identified vulnerabilities, we did note several repeat access control weaknesses, including some related to
access control vulnerabilities with ------------------- --------------------------------- ------------ -- . These are
significant issues because personnel inside the organization who best understand the organization’s
systems, applications, and business processes are able to obtain unauthorized access to some systems and
applications. Some of the identified vulnerable devices are used for ---- and ---------------- purposes. In
some cases, users are able to access test and development devices with group passwords, system default
passwords, or the same passwords with which they log into -------------------- --- As a result, ---------
----------- --- ---------- could be a target of hackers/crackers to obtain information (i.e., ----------- ------
-------- ) that can be used to attempt further access into the DHS IT environment.

Conditions noted at the Coast Guard ---------- regarding access controls that impact TSA’s financial
processing are as follows:
    •   Instances of missing and weak user passwords on ---- -------------------------- were identified.
    •   Instances were identified where workstations, servers, or network devices were configured
        without necessary security patches, or were not configured in the most secure manner.
    •   Policies and procedures requiring local security administrators to periodically revalidate ----- user
        profiles were not implemented. Additionally, evidence of reviews of ----- for the removal of
        accounts for separated personnel was not available.
    •   High-level ------- database administrator, system administrator, and system accounts were not
        actively monitored.
    •   Procedures for the authorization, regular review, and removal of data center physical access were
        not formalized and were inconsistent.
    •   Information system-related items (e.g., hardware, software, and electronic media) entering and
        exiting the -- -------- facility were not adequately tracked or recorded.

Recommendation:
We recommend that the TSA CFO and CIO offices work with ---------- management and the Coast
Guard CIO, to ensure the following corrective actions are implemented:

     Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                    Financial Statements
                                            A.3
                                                                                              Attachment A



    •   Enforce password controls that meet DHS password requirements, as prescribed in DHS Policy
        4300A, Sensitive System Handbook, on all key financial systems.

    •   Implement a formal process for performing periodic scans of the - ----------network environment,
        including the financial processing environment, for the identification and correction of
        vulnerabilities, in accordance with DHS 4300A DHS Policy and Federal guidance, the National
        Institute of Standard and Technology, Special Publication, 800-42, Guideline on Network
        Security Testing.

    •   Develop formal entity-wide procedures for controlling the processes associated with the granting,
        monitoring, and terminating of ----- user accounts that require the periodic revalidation of -----
        user profiles by local security administrators.

    •   Develop procedures for the regular and periodic monitoring of high-level ----- database
        administrators, system administrators, and system accounts to ensure that transactions are
        authorized and appropriate. The reviews should be performed by an individual in management
        that does not have the same logical access authority.

    •   Develop and implement formal -- -------- data center access procedures for requesting, granting,
        and removing access to the data center; performing regular reviews of physical access privileges;
        and retaining evidence of such reviews.

    •   Develop, document, and implement a formalized method to track information system-related
        items entering and exiting the ---------- facility and maintain appropriate records.

Application Software Development and Change Control

During FY 2005, we noted that the Coast Guard’s ---------- took corrective actions to address IT control
issues related to application software changes. However, we noted that in some cases the application
software development and change control procedures and documentation were not consistent with DHS
and Federal guidance. Regarding application software development and change controls that impact
TSA’s financial processing, we noted instances of weakness in change control processes supporting the
------------------------------ - ----- - Specifically, procedures were not developed, documentation supporting
risk assessments of software patches was not retained, formal change request forms were not in use, and
test plans and results were not documented.
Recommendation:
We recommend that the TSA CFO and CIO offices work with ---------- management and the Coast
Guard CIO, to ensure that the following corrective actions are implemented:
    •   Develop and enforce configuration management procedures for development of test plans,
        documentation of test results, delivery and implementation of software, and management
        approval of system changes for normal and emergency upgrade situations.

    •   Retain all risk assessment and testing documentation to provide an audit trail for all changes.

System Software
     Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                    Financial Statements
                                            A.4
                                                                                            Attachment A



We noted weaknesses in programs designed to operate and control the processing activities of computer
equipment. Weaknesses in this control area, closely linked to entity-wide security and access controls,
increase the likelihood that unauthorized individuals using system software could circumvent security
controls to read, modify, or delete critical or sensitive information and programs. Authorized users of the
system could gain unauthorized privileges to conduct unauthorized actions, and/or systems software could
be used to circumvent edits and other controls built into application programs.

Regarding system software controls at the Coast Guard ---------- that impact TSA’s financial processing,
we noted that policies and procedures for restricting and monitoring access to operating system software
were not developed or were inadequate.

Recommendation:
We recommend that the TSA CFO and CIO offices work with ---------- management and the Coast
Guard CIO, to ensure that the following corrective actions are implemented:

   •     Develop policies and procedures to address access to ----- and ----- in the operating system
         environment that include steps for granting, approving, and reviewing access; definitions of levels
         of access; and steps for terminating access for ----- and ----- .

   •     Develop policies and procedures for the type of monitoring that each ------- system administrator
         should perform both on a daily and periodic basis, and periodically test the effectiveness of the
         current monitoring process to ensure that unauthorized events are correctly identified.

Service Continuity

During FY 2005, we noted that the Coast Guard had begun corrective actions to address prior year
weaknesses related to the back-up and protection of critical system data. Despite these improvements,
weaknesses related to disaster recovery plans and business continuity plans continue to exist. These
issues are important because losing the capability to process, retrieve, and protect information maintained
electronically can significantly affect TSA’s ability to accomplish its mission.

Conditions noted at the Coast Guard - --------- regarding service continuity controls that impact TSA’s
financial processing are as follows:
    •    The ---------- business continuity plan did not adequately include procedures for restoring -----
         and ----- financial systems, and disaster recovery plans for the systems had not been developed.
    •    Relocation of the off-site storage location to a geographically safe distance from the primary data
         center was not complete.
    •    The -------- -- business continuity plan had not been tested or updated to reflect changes in
         hardware, software, or the off-site storage location.

Recommendation:
We recommend that the TSA CFO and CIO offices work with ---------- management and the Coast
Guard CIO, to ensure that the following corrective actions are implemented:
       Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                      Financial Statements
                                              A.5
                                                                                             Attachment A



    •   Periodically reassess and, as appropriate, revise the ---------- business continuity plan to reflect
        changes in hardware, software, and the off-site storage location, and include adequate steps for
        the restoration of financial systems.

    •   Develop disaster recovery procedures for ----- and ----- that detail processes for re-establishing
        hardware, software, and telecommunications connectivity.

    •   Complete the relocation of the off-site storage location further away from the -- -------- primary
        data center.

    •   Periodically test the business continuity plan and evaluate the results so that the plan can be
        adjusted to correct any deficiencies identified during testing.

                             APPLICATION CONTROL FINDINGS

During FY 2005, we noted weaknesses in access and account management controls associated with key
TSA financial applications hosted by -- -------- , such as the core financial and procurement applications.
Many of these weaknesses were identified during our general controls testing; however, since these same
issues also impact controls over specific key financial applications, they are reported here as well.

Conditions noted regarding application controls that impact TSA’s financial processing are as follows:

    •   Instances of missing and weak user passwords on key application servers and databases were
        identified.

    •   Policies and procedures requiring local security administrators to periodically revalidate ----- user
        profiles were not implemented. Additionally, evidence of reviews of ----- user accounts for the
        removal of accounts for separated personnel was not available.

    •   High-level ----- database administrator, system administrator, and system accounts were not
        actively monitored.

    •   Certain erroneous personnel records had not been corrected.

Recommendation:

We recommend that the TSA CFO and CIO offices work with ------------management and the Coast
Guard CIO, to ensure that the following corrective actions are implemented:

    •   Enforce password controls that meet DHS password requirements, as prescribed in DHS Policy
        4300A, Sensitive System Handbook, on all key financial systems.

    •   Develop formal entity-wide procedures for controlling the processes associated with the granting,
        monitoring, and terminating of ----- user accounts that require the periodic revalidation of -----
        user profiles by local security administrators.


     Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                    Financial Statements
                                            A.6
                                                                                           Attachment A

    •   Develop procedures for the regular and periodic monitoring of high-level ----- database
        administrators, system administrators, and system accounts to ensure that transactions are
        authorized and appropriate. The reviews should be performed by an individual in management
        that does not have the same logical access authority.

    •   Ensure that erroneous personnel records are corrected and that evidence of corrective actions
        taken is retained on file.




MANAGEMENT COMMENTS AND OIG EVALUATION

We obtained written comments on a draft of this report from the TSA Assistant Administrator for Finance
and Administration and Chief Financial Officer. Generally, the TSA CFO agreed with all of the report’s
findings and recommendations. We have incorporated the comments where appropriate and included a
copy of the comments in their entirety at Appendix E.


In his response, the TSA CFO stated that:


        •   The report identified a series of information technology related internal control weaknesses
            that stem from TSA’s use of the United States Coast Guard (USCG) financial application.
        •   During FY 2006, the USCG began corrective actions on these weaknesses.
        •   TSA will continue to work closely with the USCG in FY 2007 to address the outstanding FY
            2005 findings.


OIG Response


We agree with the steps that TSA and USCG are taking to satisfy these recommendations.




     Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                    Financial Statements
                                            A.7
                                                                                                      Attachment B




            DESCRIPTION OF FINANCIAL SYSTEMS AND IT INFRASTRUCTURE

Below is a description of significant TSA financial management systems and supporting IT
infrastructure included in the scope of the FY 2005 financial statement audit engagement.

Locations of Testing:
-------------------------- ----------- --------- -------------- --- ---------------------------------------------- TSA’s
financial applications are hosted on the Coast Guard’s IT platforms.


Key Systems Subject to Testing:
The Coast Guard is TSA’s accounting services provider.                    The following is a list of key TSA
applications used for financial processing.

•   --------------------------------------- ---------- is the core accounting system that records financial
    transactions and generates financial statements for TSA. ----- is hosted at ---------- , the Coast
    Guard’s primary data center.

•   ---------------- --------------------------------- ---------------- application is used to create and post
    obligations to ----- . It allows users to enter funding, create purchase requests, issue procurement
    documents, perform system administration responsibilities, and reconcile weekly -- -------
    ------ ------------------- Reports.

•   -- - -------------------------------------------------------- --- - is the document image processing system,
    which is integrated with an ------ --------------- ------ relational database. -- ---- allows electronic
    data and scanned paper documents to be imaged and processed for data verification,
    reconciliation, and payment. ------- utilizes MarkView software to scan documents, to view the
    images of scanned documents, and to render images of electronic data received.

•   ------------------------------------------------ ------------- ------- maintains TSA payroll data; calculates
    pay, wages, and tax information; and maintains service history and separation records. ----- - -
    interfaces with the --------- ------------------------ - -------- ----- -------- ----------------------------------- ,
    and the ----------------------------------------- - -------- ------------- --- -- ------------, and receives other
    data inputs. ------- is a mainframe application.

•   ---------------------------------- ----------------------------- ------------------- --- – --------- is the U.S.
    Department of Transportation’s (DOT) personnel management system. The system processes and
    tracks personnel actions and employee related data for TSA, including employee elections for the
    Thrift Savings Plan (TSP), life insurance, and health insurance as well as training data and general
    employee information (e.g., name and address). --- ----- is also used to maintain information
    related to budget, training, civil rights, labor relations and security. --------- is a mainframe
    application. --------- interfaces with -------- to allow ------- to perform the calculation of pay, time
    and attendance reporting, leave accounting, and wage and tax reporting. ------- also uses the

      Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                     Financial Statements
                                             B.1
                                                                                                           Attachment B




    information received from --------- to initiate payroll deductions for TSP, insurances, Combined
    Federal Campaign contributions, and savings bonds.

•   -------------------------------- --------------------------- – ------ processes requests for personnel action,
    training enrollments, and time and attendance information. ------- interfaces with --------- and
    ------- to receive time and attendance and payroll information. ------ also interfaces with the ------
    ------------- ------------------ ---------- system. ----- is a client/server system that provides reporting
    capability through an Oracle database.

On August 22, 2005, TSA payroll and time and attendance processing moved to the National Finance
Center (NFC) system administered by the Department of Agriculture. For payroll, TSA will be using
-------------- ----- -------------------------------------- ----- , which will interface with the NFC system. The
----------- -- - --------- ----- --------------------------- -- - ------------------------- ----- . The ----------- -- -------
system will also interface with the NFC system.




      Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                     Financial Statements
                                             B.2
                                                                                        Attachment C




  TSA IT NOTICES OF FINDINGS AND RECOMMENDATIONS THAT
CONTRIBUTED TO THE DEPARTMENT’S MATERIAL WEAKNESS OVER
                FINANCIAL SYSTEM SECURITY


                                                                              New     Repeat
   NFR #             Condition                      Recommendation
                                                                              Issue    Issue
                                              TSA management should
                                              work with - ---------
                                              management to ensure the
            Formal procedures                 development and
            regarding access to the           implementation of formal
   TSA-IT
            ------ - -- data center have      data center access               X
   05-001
            not been established and          procedures and a
            implemented.                      formalized method to track
                                              information system-related
                                              items entering and exiting
                                              the facility.
   TSA-IT
   05-002   Was not used.                     N/A                             N/A      N/A

            -------- -------- change
            control process supporting        TSA management should
            --- -- -- - -- ----------------   work with - ---------
            ------ - and -- - - ------        management to ensure the
            -- ----- --- -- --- - -- ---      development and
            ---- --- have weaknesses          enforcement of
            including: procedures in          configuration management
  TSA-IT-   support of the finalized          procedures for developing
                                                                               X
   05-003   CM policy are not                 test plans, documenting test
            developed, documentation          results, implementing
            supporting a risk                 software, management
            assessment is not                 approval of system
            maintained, formal change         changes, and retention of
            requests are not used, and        risk assessment and testing
            test plans and test results       documentation.
            are not documented.
                                              TSA management should
            Service continuity
                                              work with - ---------
            weaknesses for ---------- ,
                                              management to ensure the
            ----- , and ----- , including
                                              periodic reassessment and,
            outdated Business
                                              as appropriate, revision of
            Continuity Contingency
                                              the ---------- BCCP,
  TSA-IT-   Plan (BCCP), lack of
                                              development of disaster          X
   05-004   disaster recovery
                                              recovery procedures for
            procedure details, an off-
                                              ----- and --- -- , completion
            site storage location in
                                              of the relocation of the off-
            close proximity to the data
                                              site storage location, and
            center, and lack of BCCP
                                              periodic testing of the
            testing exist.
                                              BCCP.

Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       C.1
                                                                                            Attachment C




                                                                                  New     Repeat
   NFR #               Condition                      Recommendation
                                                                                  Issue    Issue
                                                 TSA management should
                                                 work with - ---------
            Documented procedures                management to ensure the
            do not exist for controlling         development of formal
            the processes associated             entity wide procedures for
  TSA-IT-
            with the granting,                   granting, monitoring, and         X
   05-005
            monitoring, and                      terminating ----- user
            termination of user                  accounts and periodic
            accounts within ----- .              revalidation of ----- user
                                                 profiles by local security
                                                 administrators.
            -------- -- has not
                                                 TSA management should
            developed documented
                                                 work with - ---------
            policies and procedures to
                                                 management to ensure the
            restrict access to the -------
                                                 development of policies and
            operating system, to
                                                 procedures for restricting
   TSA-IT   monitor access to this
                                                 and monitoring access to          X
   05-006   system, and for periodic
                                                 the ------- operating system
            reviews to determine if
                                                 for ----- and - - -- and
            monitoring of the ---- ---
                                                 performance of period
            operating system for ------
                                                 reviews of the monitoring
            and ----- is functioning as
                                                 process.
            intended.
            Certification and
            Accreditation (C&A) of
                                                 TSA management should
            the ---- -- --- ------------
                                                 work with - ---------
            ---- ---- ----- --- -- ---- ---- -
                                                 management to ensure the
            ----- , and ----- was not
                                                 update and completion of
   TSA-IT   complete. Specifically,
                                                 the C&A process for               X
   05-007   security testing and
                                                 --- ---- ------ , and ----- to
            evaluation (ST&E) was
                                                 include the completion of
            incomplete and security
                                                 ST&E, and the update of
            plans had not been
                                                 security plans.
            updated.

                                                 TSA management should
            -------- -- has not
                                                 work with - ---------
            implemented formal
                                                 management to ensure the
            procedures for the periodic
                                                 development of procedures
            management review and
  TSA-IT-                                        for the regular and periodic
            monitoring of activities of                                            X
   05-008                                        monitoring of high-level
            ----- database
                                                 ----- database administrator
            administrators, system
                                                 and system administrator
            administrators, and the
                                                 activities, and the --------
            -------- SYS accounts.
                                                 SYS account.




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       C.2
                                                                                      Attachment C




                                                                            New     Repeat
   NFR #            Condition                   Recommendation
                                                                            Issue    Issue
                                           TSA management should
                                           work with - ---------
                                           management to ensure the
            The Enterprise Security        implementation of the
            Management tool                individual fixes noted in the
            identified world writeable     NFR for vulnerabilities
  TSA-IT-
            directories without a sticky   identified and the institution    X
   05-009
            bit set and account            of a formal process for
            management weaknesses          performing periodic scans
            over ------ - .                of the -- ----- -- network
                                           environment, including the
                                           financial processing
                                           environment.
                                           TSA management should
                                           work with - ---------
                                           management to ensure the
                                           implementation of the
            AppDetective identified
                                           individual fixes noted in the
            vulnerabilities on the -----
                                           NFR for vulnerabilities
  TSA-IT-   database including weak
                                           identified and institution of     X
   05-010   passwords, excessive
                                           a formal process for
            access permissions and
                                           performing periodic scans
            missing patches.
                                           of the -- ----- -- network
                                           environment, including the
                                           financial processing
                                           environment.
                                           ------ - -- management
            Internet Security Systems
                                           implemented immediate
  TSA-IT-   Internet Scanner identified
                                           corrective action by              X
   05-011   three hosts that were
                                           removing the --- --- -- --
            missing patches.
                                           ------ from the three hosts.
                                           TSA management should
            Inaccuracies exist within      ensure that personnel errors
            TSA personnel records          regarding separated
   TSA-IT   which address separated        employees cited during the
                                                                                      X
   05-012   employee issues and other      prior year audit are
            erroneous personnel            corrected and
            records.                       documentation of corrective
                                           actions is retained on file.




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       C.3
                                                                                           Attachment D




          STATUS OF PRIOR YEAR TSA IT NOTICES OF FINDINGS AND
                          RECOMMENDATIONS


                                                                                          Disposition
NFR No.                                 Description
                                                                                     Closed         Repeat
          Segregation of duties is not properly enforced in the Delphi Application
 04-01                                                                                 X
          within FFMS.
          Weaknesses in Delphi access controls, network security, and system
 04-02                                                                                 X
          security controls.
 04-03    System financial integrity issues identified in the Delphi application.      X
          Inaccuracies exist within TSA personnel records which addresses both
 04-04                                                                                             05-012
          separated employee issue and other erroneous personnel records.




   Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                                  Financial Statements
                                          D.1
                                                                        Attachment E




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       E.1
                                                                        Attachment E




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       E.2
                                                                        Attachment E




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       E.3
                                                                        Attachment E




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       E.4
                                                                        Attachment E




Special Report: Letter on Information Technology Matters Related to TSA’s FY 2005
                               Financial Statements
                                       E.5
    Report Distribution

    Department of Homeland Security

    Secretary
    Deputy Secretary
    Chief of Staff
    Deputy Chief of Staff
    General Counsel
    Executive Secretariat
    Under Secretary, Management
    Director, TSA
    Chief Information Officer
    Deputy Chief Information Officer
    Chief Financial Officer
    Chief Information Officer, TSA
    Chief Financial Officer, TSA
    Assistant Secretary, Public Affairs
    Assistant Secretary, Policy
    Assistant Secretary, Legislative and Intergovernmental Affairs
    DHS GAO OIG Audit Liaison
    Chief Information Officer Audit Liaison
    TSA Audit Liaison
    Chief Privacy Officer

    Office of Management and Budget

    Chief, Homeland Security Branch
    DHS Office Budget Examiner

    Congress

    Congressional Oversight and Appropriations Committees, as appropriate




Special Report: Letter on Information Technology Matters Related to TSA’s FY
                           2005 Financial Statements
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
